No. 19-1104
IN THE

Supreme Court of the United States
MARK JANUS,
v.

Petitioner,

AMERICAN FEDERATION OF STATE, COUNTY AND MUNICIPAL EMPLOYEES, COUNCIL 31,
ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
SUPPLEMENTAL BRIEF FOR RESPONDENT AFSCME COUNCIL 31 in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1,177 words, excluding the parts that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 11, 2020.
/s/ John M. West
JOHN M. WEST
(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jwest@bredhoff.com
Counsel for Respondent AFSCME Council 31

